           Pen
             nsion Benefit
                   B       Guaran
                           G    nty Corrporatio
                                              on
                   Office
                        e of Ins
                               specto
                                    or Gen
                                         neral
                            Evalua
                                 ation Re
                                        eport




          Fisca
              al Year 2013
                      2    Vulnerabilitty Assessment and
                    Pennetration Testin
                                      ng Repoort


                RESTR
                R   RICTE
                        ED DIS
                             SCLOS
                                 SURE

This document contains
                c         prrivileged and
                                      a confide  ential inforrmation, an
                                                                       nd was
producced at the direction of
                           o the Pens  sion Beneffit Guarantty Corpora ation, Offic
                                                                                  ce of
Inspec
     ctor General. It may not
                           n be disc  closed, repproduced, or disseminated with    hout
                 the
                 t expres  ss permiss sion of the Inspector General.




                                Janu
                                   uary 9, 2014
                                                         EV
                                                          VAL-2014-6//FA-13-93-55
                        Pension Benefit Guaranty Corporation
                                                        Office of Inspector General
                                        1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                               January 9, 2014


To:            Joshua Gotbaum
               Director

From:          Rashmi Bartlett
               Assistant Inspector General for Audit

Subject:       Fiscal Year (FY) 2013 Vulnerability Assessment and Penetration Testing
               (EVAL-2014-6/FA-13-93-5)


I am pleased to transmit the attached Restricted Disclosure report detailing results of the
vulnerability assessment and penetration testing evaluation performed in conjunction with the
audit of the Pension Benefit Guaranty Corporation (PBGC) FY 2013 financial statements.

During the financial statement audit, our independent public accountant, CliftonLarsonAllen
LLP, assessed the PBGC information security infrastructure for technical weaknesses in
PBGC’s computer systems that may allow employees or outsiders to cause harm to, and/or
impact, PBGC’s business processes and information. In its assessment, CliftonLarsonAllen
found the PBGC’s information security vulnerabilities have increased. OIG was optimistic
after seeing a significant decline in the number of vulnerabilities form FY 2011 to FY 2012.
Our FY 2013 findings raise concerns about the effectiveness of PBGC’s scanning efforts and
timeliness in mitigating significant security weaknesses.

Due to the sensitive nature of this report, its disclosure has been restricted. The final
transmittal memorandum will be posted to the OIG external website, but the attachment
summarizing our evaluation will be redacted in its entirety because it contains privileged and
confidential information that, if disclosed, would cause further vulnerability.

We appreciate the cooperation that CliftonLarsonAllen and the OIG received while
performing the testing.

Attachment


cc: Judith Starr
    Patricia Kelly
    Alice Maroni
    Ann Orr
    Jioni Palmer
    Barry West
    Sandford Rich
    Marty Boehm
If you want to report or discuss confidentially any instance of misconduct,
   fraud, waste, abuse, or mismanagement, please contact the Office of
                             Inspector General.



                              Telephone:
                   The Inspector General’s HOTLINE
                           1-800-303-9737

          The deaf or hard of hearing, dial FRS (800) 877-8339
           and give the Hotline number to the relay operator.



                                   Web:
               http://oig.pbgc.gov/investigation/details.html



                                Or Write:
                 Pension Benefit Guaranty Corporation
                      Office of Inspector General
                            PO Box 34177
                    Washington, DC 20043-4177
